|0|.^5O

4^ /<f%

No.
^?/r

3n ttie
Supreme Court of tfje Umteb States;
Melissa L. Barnette, PETITIONER
V.

PROF-2013-M4 LEGAL TITLE, BY U.S. BANK,
NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA

PETITION FOR WRIT OF CERTIORARI

i

Melissa L. Barnette, Petitioner
2010 13th Street NW
Washington, DC 20009-4435
(202) 460-8825

fvA
L-J

?

-■ COURT u s
OFFICE

MiMTlg P |: IQ

RECEIVED
NOV 2 o 2019
SUPREM°FrT^n9-LpfqK

QUESTIONS PRESENTED
On August 21, 2019, the District of Columbia
Court of Appeals (alternatively, “DCCA”), affirmed the
Superior Court’s August 27, 2018 order denying
Petitioner’s Super. Ct. Civ. R. 60(b)(3), 60(b)(4) and
60(d)(2) motion to vacate its void order granting
Respondents’ motion for summary judgment entered
on April 20, 2017, in a fraudulent foreclosure of
Petitioner’s residence of sixteen years.
The judgment is entirely incongruent with the
record evidence, rules of civil procedure, impartiality,
constitutional rights and other laws. In fact, the
judgment expresses approval for the superior court’s
utter and profound cruel treatment it openly
demonstrated against Petitioner’s rights, inter alia,
Fourteenth Amendment that states in pertinent part:
“No State shall make or enforce any
law which all abridge the privileges or
immunities of citizens of the United
States; nor shall any State deprive
any person of life, liberty or property,
without due process of law; nor deny
to any person within its jurisdiction
the equal protection of the laws.”
Here is a summary of the profound
unconstitutional abuse exercised by DC Court of
Appeals in its unfounded review against Petitioner’s
constitutional rights, but not limited to, other civil
rights violations:

1. For a period of nearly fifteen (15) months---- from the date the Complaint for Judicial Foreclosure
was filed on December 21, 2015 through March 6, 2017,
the court literally permitted the Respondents’
attorneys to conceal from Petitioner the payee’s
identity of the underlying June 25, 2007 deed of trust
and promissory note (negotiable instruments) by
intentionally defacing the note’s endorsement stamp,
other sections of the note and other documents filed
with the complaint that were defaced.1 See Appendix
E-l and E-5
2. The Respondents’ attorneys were permitted to
misrepresent every applicable Super. Ct. R. Civ. P. and
other laws, inter alia, contending that Petitioner was
ignorant to the rules of the court and the spoliation to
the note and other documents are considered
“redactions” and are required under the Super. Ct. R.
Civ. P. and accepted by the court.
3. The complaint alleged that the original Lender,
NovaStar Mortgage, Inc., assigned its rights under the
Note and Deed of Trust to US National Association,
Not in its Individual Capacity, But Solely as Trustee
for the RMAC Trust, Series 2013-1T.
4. The Respondents’ attorneys were permitted to
fabricate an allegation contrary to evidence that on
May 1, 2014, Petitioner caused a default under the
note. The evidence not only shows that the May 1, 2014
payment was intentionally placed in a bogus suspense
1 Deface. To mar or destroy the face (that is the physical appearance of
written or inscribe characters as expressive of a deface (that is, the physical
appearance of a definite meaning) of a written instrument, signature,
inscription, etc., by obliteration, erasure, cancellation, or superinscription,
so as to render it illegible or unrecognizable. To mar, injure or spoil. State
v. Kasnett, 30 Ohio App.2d 77, 282 N.E.2d 636, 638.

account as well as the June 1, 2014 payment totaling
$5,515.83. See Appendix G and Appendix H-3.
Among other things, nowhere is it discussed as a
finding in DCCA’s judgment nor in any superior court
orders that the “$5,515.83” is wrongfully or otherwise
being held in a suspense account with Specialized Loan
Servicing, LLC. Instead, the $5,515.83 is disguised as
“surplus proceeds.” Petitioner is not only being falsely
accused of causing a default, but also causing a default
under the June 25, “2007” negotiable instruments to a
bogus unregistered trust, namely, “RMAC Trust,
Series 2013-IT,” purportedly formed in the year of
“2013.” At first glance, among the totality of genuine
issues of material fact emanating from all four corners
of the frivolous complaint, the 2013 Trust presents
serious REMIC (Real Estate Mortgage Investment
Conduit) securitization issues and violations.
5. On February 10, 2017, approximately fourteen
(14) months after the complaint was filed, the
Respondents filed a frivolous “motion to substitute
party plaintiff,” U.S. Bank, N.A..., as Trustee for
RMAC Trust Series 2013-IT to Prof-2013-M4 Legal
Title, By U.S. Bank, N.A., as Legal Title Trustee. The
unlawful transfer of Petitioner’s property was
simultaneously being committed while the note and
other documents remained under spoliation.
6. Nearly fifteen months after the complaint was
filed (December 21, 2015), on March 6, 2017, the
Respondents’ attorneys reluctantly produced to
Petitioner a copy of an undefaced note. The note
identified that the original lender, NovaStar Mortgage
Inc., assigned its rights, title and interest under the
in

negotiable instruments to Wells Fargo Bank, N.A.,
Successor by Merger to Wachovia Bank, N.A. See
Appendix F-12.
7. On March 6, 2017, Petitioner discovered that
the concealment was to prevent Petitioner from
discovery, and among other things, that she had been
fraudulently induced into sending her mortgage
payments to imposter mortgage servicers that filed
false bankruptcy claims against Petitioner using
unregistered bogus trusts as creditors.
8. Even after reluctantly disclosing Wells Fargo
Bank, N.A., as the payee, owner and noteholder to
Petitioner’s residence, on March 20, 2017, the court
granted the motion to substitute party plaintiff and
claimed to find that the grant did not impose any
prejudice to Petitioner.
9. From the onset, the court knew it lacked
subject matter jurisdiction. The court continued to
issue void orders and judgments purported to find that
NovaStar transferred its interest in the Property’s
deed of trust and Note to U.S. Bank, N.A..., as Trustee
and U.S. Bank,
for RMAC Trust Series 2013-IT
N.A., et al, transferred its interest over to Prof-2013M4 Legal Title, By U.S. Bank, N.A., as Legal Title
Trustee.
10. The Respondents and their attorneys were
permitted to violate Petitioner’s right to acquire
discovery. Every applicable Super. Ct. Civ. Rule, D.C.
Codes and other laws that demands for individuals to
be identified were waived by the court. In fact, in its
place, the court permitted the attorneys to identify
IV

Petitioner and co-defendant John Reosti as factwitnesses. On December 15, 2016, Counsel filed a
Praecipe to Take Notice of Fact Witnesses. Among the
discovery,
Petitioner served twenty-five
(25)
interrogatories and all 25 were two-part boilerplate
objections, ending with “Defendant Barnette has no
standing to challenge the assignment of the Note and
Deed of Trust.”
The same two-part boilerplate
objections were received in Petitioner’s document and
admission requests.
11. On April 20, 2017, the court issued a void
order granting motion for summary judgment.
12. Mr. Reosti never occupied Petitioner’s
residence nor contributed toward any of the sixteen
(16) years of mortgage payments made by Petitioner.
Mr. Reosti neither filed an answer to the complaint nor
appeared at any of the hearings. On April 20, 2017, the
court entered a default judgment against Mr. Reosti.
In spite of Petitioner’s repeated objections to prevent
further injury, the court then permitted Respondents’
attorneys to obtain Mr. Reosti’s consent to two frivolous
motions, promising Mr. Reosti that Respondents would
agree to remove the derogatory rating from his credit
profile if he consents to two motions. On September 14,
2017, and November 17, 2017, the court granted partial
consent orders with the latter granting the motion to
ratify accounting, release the bond and close the case.
The District of Columbia Court of Appeals August
21, 2019 judgment was issued having no foundation or
basis in fact in its entirety and it is a clear violation of
innumerable rights and laws not only to the detriment
of petitioner, Melissa L. Barnette, but also to the
public.
v

PARTIES TO PROCEEDING AND
RELATED CASES

All parties do not appear in the caption of the
case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject
of this petition is as follows:
1. Melissa L. Barnette, Petitioner.
2. John Reosti was also named a defendant.
3. US Bank, National Association, Not In Its
Individual Capacity, But Solely as Trustee for the
RMAC Trust, Series 2013-IT
4. Prof-2013-M4 Legal Title, By U.S. Bank, N.A., as
Legal Title Trustee, Respondent
5. The attorneys for the two entities identified in
numbers three and four are as follows:
Linda M. Barran, Esq.
Kevin Hildebeidel, Esq.
Stern & Eisenberg Mid-Atlantic, P.C.
9411 Philadelphia Road, Suite M
Baltimore, Maryland 21237
(410) 635-5127

There are no related cases.

vi

TABLE OF CONTENTS
Page
Opinions Below....................................................
Jurisdiction.........................................................
Constitutional and Statutory Provisions
Involved......................................................
Statement of the Case.......................................
Reasons for Granting the Petition.............. .
I.

II.

1
1
2
5
8

D.C. Superior Court Knew From the
Onset It Lacked Subject-Matter
Jurisdiction..........................................

9

D.C. Court of Appeals Judgment Is
In Stark Conflict with the
Petitioner’s Constitutional Rights
Record Evidence and Laws.............

9

A.

Complaint for Judicial Foreclosure
Fraught with Fraud......................... 13
(i) Orchestrated False
Mortgage Default of
May 1, 2014................................. 14
(ii) Intentional Spoliation of the
Promissory Note and Other
Documents.................................. 14

Vll

III.

The Superior Court Permitted the
Spoliation of the Promissory Note and
Other Documents......................................... 17
A. Spoliation of the Promissory Note
Confirmed with Check Marks............ 19
B. Chain of Fraudulent Assignments of
Deed of Trust (Filed False Bankruptcy
Claims) — Intentional Spoliation of
Assignments of Assignments
and Allonges to Note
20

IV.

Filed Frivolous Motion to Substitute
Party Plaintiff While the Promissory Note
Remained Under Spoliation
23

V.

Counsels Identified the Spoliation
of Promissory Note and Other
Documents as Redactions Required
Under Super. Ct. Civ. Rules and
Accepted by the Court.....................

VI.

VII.

26

Order Granting Motion to Substitute
Party Plaintiff Is Void Ab Initio........

28

Motion for Summary Judgment
Fabricates Three Different
Entitlements to Foreclose.........

30

vm

VIII.

IX.

X.

Order Granting Motion for
Summary Judgment Entered
on April 20, 2017 is Void Ab Initio

33

False Finding of May 1, 2014 Default —
Non-Real Party In Interest Holds No
Legal Entitlement Under the Negotiable
Instruments
34
Respondents Bribed Co-Defendant John
Reosti to Procure His Illegal Consent to
Two Fraudulent Motions............................ 36

XI. Ali Pahlavani, Trustee Is Not a Bona Fide
Purchaser of Petitioner’s Residence.........37
Conclusion

40
INDEX TO APPENDICES

Appendix A: District of Columbia Court of
Appeals Judgment Entered on
August 21, 2019...................
A-1—3
Appendix B: District of Columbia Court of
Appeals Mandate
Issued on September 12, 2019.......

B

Appendix C: Superior Court’s Order Denying
Petitioner’s (Defendant Barnette’s)
Motion to Vacate Its Void Order
Entered on August 27, 2018
C-l—5
IX

Appendix D: Superior Court’s Order Granting
Petitioner’s Motion to Exceed
Page Limit Entered on
June 29, 2018 ............................... D-l—3
Appendix E: Intentional Spoliation of the
June 25, 2007 Adjustable Rate
Promissory Note....................... E-l—5
Appendix F: Adjustable Rate Promissory
Note (June 25, 2007)............

F-l—12

Appendix G: Specialized Loan Servicing, LLC
Mortgage Statement: May 1, 2014
And June 1, 2014 Post-Petition
Payments Unlawfully Held
In Bogus Suspense Account...........
Appendix H: Plaintiffs Accounting and
Distribution of Funds.....
Appendix I:

G

H-l—5

Superior Court’s Order Granting
Motion for Judgment and Decree
of Sale Entered on
April 20, 2017
1-1—14

Appendix J: District of Columbia
Superior Court Rules of
Civil Procedure..............

x

J

TABLE OF AUTHORITIES
Cases:

Akins v Vermast,
150 Or App 236 n 7
[Or Ct App 1997]................................

39

Bolger u. District of Columbia,

608 F. Supp. 2d 10, 30 (D.D.C. 2009)
In re Bond, 519 A.2d 165, 166

18

(D.C. 1986)............................................

12

Brock v Yale Mortg. Corp.,
287 Ga 849, 852 [2010].......................

39

Brown v. 1301 K St. Ltd P’ship,
31 A.3d 902, 908 (D.C. 2011).............

32

Bruno v. Western Union Fin. Servs., Inc.,
973 A.2d 713, 717 (D.C. 2009)..........

33

Bulloch v. United States,
763 F.2d 1115, 1121
(10th Cir. 1985)....................................

13, 20 35

Byrd v. Allstate Insurance Company,
622 A. 2d 691, 692 (D.C. 1993)...........

32

Carey v. Pjphus,
435 U. S. 247, 254-257 (1978)......................

40

xi

Cases—Continued:

Clark v. Trailiner Corp.,
42 F.3d 388 (10th Cir. 2000).....................

25

Cockerham v. Zikratch,
619 P.2d 739 (Ariz. 1980)..........................

9

In re Coordinated Pretrial Proceedings
in Antibiotic Antitrust Actions,
538 F.2d 180, 195 (8th Cir. 1976)..........

12

Davis v. Yageo Corp.,
481 F.3d 661, 678 (9th Cir. 2007)............

25

Erie R.R. Co. v. Tompkins,
304 U.S. 64 (1938)......................................

9

Earle v. McVeigh, 91 US 503, 23 L Ed 398.....

29

Ferguson v. District of Columbia,
629 A.2d 15, 19 (D.C. 1993)......................

33

Froehle, 2011, pp. 1729-1730, FN 57-61...........

29

Hanna v. Plumer, 380 U.S. 460, 475 (1965) ....

.9

Harding v. Ja Laur Corp., 20 Md. App. 209,
214, 315 A.2d 132. 135 (D.C. 1974).........

39

Hazel-Atlas Glass Co. v. Hartford Empire Co.,
322 U.S. 238 (1977)
13, 20, 35

Xll

Cases—Continued:

Holland v. Hannan.,
456 A.2d 807, 815 (D.C. 1983)............

32

Kramer v. Gates, 481 F.3d 788
(D.C. Cir. 2007).....................................

8

Long v. Shorebank Development Corp.,
182 F.3d 548 (C.A. 7 Ill. 1999)............

9

Lujan v. Defenders of Wildlife,
504 U.S. 555, 560-61 (1992)...............

8

Mazloum v. District of Columbia Metro.
Police Dep’t, 530 F. Supp. 2d 282, 291
(D.D.C. 2008).........................................

18

M.M. & G., Inc. v. Jackson,
612 A.2d 186, 191 (D.C. 1992)............

39

Molla v. Sanders,
981 A.2d 1197, 1199 (D.C. 2009)........

32

Nader v. de Toledano,
408 A.2d 31 (D.C. 1979)........................

32

Osbourne v. Capital City Mortgage Corp.,
667 A.2d 1321 1324 (D.C. 1995).........

32

People ex rel Brzica v. Village of Lake
Barrington, 644 N.E.2d 66
(Ill-App. 2 Dist. 1994)..........................

9

xm

Cases—Continued:

In re Patterson, 833 A.2d 493 (D.C. 2003) ....

13

Scott D. Erler, D.D.S. Profit Sharing Plan v.
Creative Fin. & Investment, L.L.C.,
349 Mont 2017, 214 [2009] .....................

39

Sturdivant v. Seaboard Serv. Sys.,
459 A.2d 1058 (D.C. 1983).................

32

Thompson v. Thompson,
238 S.W.2d 218 (Tex.Civ.App.-Waeo 1951)

9

United Fed’n of Postal Clerks,
AFL-CIO v. Watson, 409 F.2d 462,
470-71 (D.C. Cir. 1969)......................

25

xiv

Statutes and regulations:
Super.
Super.
Super.
Super.
Super.
Super.
Super.
Super.
Super.
Super.
Super.
Super.

Ct.
Ct.
Ct.
Ct.
Ct.
Ct.
Ct.
Ct.
Ct.
Ct.
Ct.
Ct.

Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.
Civ. R.

5.2(a)(1)
5.2(e)(1)
12(h)(3).
17(a) ....
25(c) ....
56(c) ....
60(b)(3)
60(b)(4)
60(b)(6)
60(c)(1)..
60(d)(2)
82.........

26
26
29
24, 25
24
32, 33
10, 11
10, 11
10
11
10, 11
29

U.S. Code 42 U.S.C. § 1983

2

AMENDMENTS
Fifth Amendment.........
Fourteenth Amendment

3
2

xv

in tfte
Supreme Court of tfje Mmteti States;
PETITION FOR WRIT OF CERTIORARI
Petitioner, Melissa L. Barnette, respectfully prays
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the District of
Columbia Circuit.
OPINIONS BELOW
The judgment of the District of Columbia Court of
Appeals Circuit appears at Appendix A to the petition
and is unpublished.
The opinion of the Superior Court for the District
of Columbia appears at Appendix B to the petition
and is unpublished.
JURISDICTION
The judgment of the District of Columbia Court
of Appeals was entered on August 21, 2019. A copy of
that decision appears at Appendix A.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a).

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Every applicable right and protection afforded to
Petitioner under the United States Constitution, the
right to due process and the right to protect her
property against a manifest foreclosure fraud scheme,
were profoundly and openly barred by the Superior
Court for the District of Columbia and District of
Columbia Court of Appeals.
Fourteenth Amendment
All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside.
No State shall make or enforce any law which all
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
U.S. Code 42 U.S.C. § 1983 —
Civil Action for Deprivation of Rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
2

the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.
Fifth Amendment—Due Process Clause
The Fifth and Fourteenth Amendments to the United
States Constitution each contain a due process clause.
Due process with the administration of justice and thus
the due process clause acts as a safeguard from
arbitrary denial of life, liberty, or property by the
government outside the sanction of law. The Supreme
Court furthered the protections of this amendment
through the Due Process Clause of the Fourteenth
Amendment. Supreme Court has interpreted the due
process clauses to provide four protections: procedural
due process (in civil and criminal proceedings),
substantive due process, a prohibition against vague
laws, and as the vehicle for the incorporation of the Bill
of Rights.

3

Fraud on the Court
Rule 60. Relief from a Judgment or Order
(b) GROUNDS FOR RELIEF FROM A FINAL
JUDGMENT, ORDER OR PROCEEDING. On motion
and just terms, the court may relieve a party or its legal
representative from a final judgment, order, or
proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with
reasonable diligence, could not have been discovered in
time to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by an
opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment that has
been reversed or vacated; or applying it prospectively
is no longer equitable; or
(6) any other reason that justifies relief.
(c) TIMING AND EFFECT OF THE MOTION.
(1) Timing. A motion under Rule 60(b) must be
made within a reasonable time—and for reasons (1),
(2), and (3) no more than a year after the entry of the
judgment or order or the date of the proceeding.
(2) Effect on Finality. The motion does not affect
the judgment’s finality or suspend its operation.
(d) OTHER POWERS TO GRANT RELIEF. This rule
does not limit a court’s power to:
4

(1) entertain an independent action to relieve a
party from a judgment, order, or proceeding; or
(2) set aside a judgment for fraud on the court.
STATEMENT OF THE CASE
Factual Background
Petitioner, Melissa L. Barnette (hereafter,
“Petitioner”) and co-defendant John Reosti (“Reosti”)
are the legal title owners of the real property known as
1110 Q Street NW, Washington, D.C. 20009-4313, Lot
809, Square 310 (the, “Property”). Petitioner’s property
has been her residence for more than sixteen (16)
years, from 2000 through April 10, 2016.
Petitioner inquired into refinancing her home for
the purpose of making necessary repairs. On June 25,
2007, NovaStar Mortgage Inc., (“NovaStar”),
encumbered the Property with a Deed of Trust secured
by
an
Adjustable
Rate
Note
(“Negotiable
Instruments”), in the principal amount of $300,000.00.
The high-cost terms of the ARM loan are as follows:
8.900% interest rate for the first twenty-four
months, the monthly principal and interest
(PI) payment $2,393.31, with taxes and
insurance, total monthly PITI payment of
2,716.81. Thereafter, the subprime ARM
interest rate changes one percent (1.000%)
per annum until it reaches its maximum
fully indexed interest rate of 15.900% over
the life of the loan, resulting in monthly PI
payment of $3,934.07, PITI payment of
$4,258.57.
5

Petitioner accepted NovaStar’s loan terms with
every intention of modifying or refinancing after twelve
to twenty-four months into an affordable fixed rate
loan. NovaStar was also the servicer of the loan and
received Petitioner’s mortgage payments until 2008
when Petitioner received a notice of transfer of loan
servicing from HomEq Servicing Corporation, doing
business as, Barclay Capital Real Estate, Inc.,
(“HomEq”), requesting that payments be sent to
HomEq.
During the height of the 2007-2008 financial
crisis, Petitioner sought to modify out of the subprime
ARM loan into an affordable fixed rate loan, to no avail.
HomEq alleged that it was not a participant in any
affordable fixed rate programs nor would it be offering
any fixed rate programs. At the time, unbeknownst to
Petitioner, HomEq s notice of transfer of loan servicing
to receive payments was fabricated and sent in
violation of RESPA, 12 CFR § 1024.33(b)(1).
In December 2009, Petitioner filed a Chapter 13
Bankruptcy in the United States Bankruptcy Court for
the District of Columbia, Case No: 09-01130. (App.
356-358). The following loan servicers filed bankruptcy
creditors’ claims and received Petitioner’s post-petition
and
bankruptcy
trustee’s
payments:
(1)
HomEq/Barclays; (2) Quantum Servicing Corporation
( Quantum ); (3) Specialized Loan Servicing, LLC
(alternatively, “SLS”); and, (4) Rushmore Loan
Management Services, LLC (“Rushmore”). Petitioner
also sought to obtain an affordable fixed rate
modification loan through each of the purported
servicers, to no avail.

6

Petitioner’s May 1, 2014 and June 1, 2014 post­
petition and trustee’s payments were made while
under the plan. After nearly five years (4.6), Petitioner
completed the plan. On June 18, 2014, an order was
entered, discharging the chapter 13 trustee, and the
case was closed. (App. 356-358).
Shortly after completing the plan, Rushmore
contacted Petitioner via telephone and informed her
that her May 1, 2014 and June 1, 2014 post-petition
payments were placed in a suspense account and the
same would occur to future payments. Petitioner
questioned Rushmore’s unconscionable actions as to
why her payments had been placed in a suspense
account.
The representative did not provide an
explanation since no valid explanation could be given.
Instead, Rushmore provided Petitioner with the
name of “RMAC Trust, Series 2013-1T.” At that point,
Petitioner requested RMAC’s contact information.
Rushmore neither had a contact name, address, nor
telephone number for RMAC.
At no time, did
Rushmore utter the name and contact information of
U.S. Bank, National Association as a source of contact.
Meanwhile, Rushmore maintained to unlawfully
hold Petitioner’s payments in a bogus suspense account
while illegally reporting adverse credit ratings against
Petitioner and Reosti’s credit profiles. Petitioner
contacted Rushmore representative, Jaime Munoz
(“Munoz”), and demanded that Rushmore cease and
desist from reporting adverse credit ratings against her
and Reosti’s credit profiles.
In fact, RMAC Trust, Series 2013-IT did not exist;
the bogus trust was not registered with the following
required authorities: (1) Securities and Exchange
Commission (SEC); (2) Internal Revenue Service
7

(IRS); (3) District of Columbia Office of Tax and
Revenue; (4) D.C. Department of Consumer and
Regulatory Affairs Corporation Division; (5) nor,
registered as trust formed under any state of the U.S.
The
foreclosure
complaint
subsequently
commenced when Petitioner contacted Munoz
requesting that Rushmore provide her with the
appropriate address to send a “Qualified Written
Request” (QWR), pursuant to the Real Estate
Settlement Procedures Act (RESPA), 12 U.S.C. §
2605(e)(1)(B), for information concerning Rushmore,
and RMAC Trust, Series 2013-IT.
REASONS FOR GRANTING THE PETITION
I. D.C. Superior Court Knew from the
Onset It Lacked Subject-Matter
Jurisdiction
While litigating parties may waive personal
jurisdiction, they cannot waive subject-matter
jurisdiction. “The standing requirement, as governed
by Article III, section 2, of the Constitution, permits
courts to adjudicate only cases or controversies. A case
or controversy must comprise an actual injury that can
be redressed. See Lujan u. Defenders of Wildlife at
p559. Subject-matter jurisdiction does not exist in the
absence of constitutional standing.”
The D.C. Circuit has provided a test to determine
when a court can decide an issue before adjudicating
jurisdiction: a court can decide an issue before
jurisdiction if the issue does not involve “an exercise of
a court’s law-declaring power...” See Kramer v. Gates,
8

481 F.3d 788 (D.C. Cir. 2007). A court exercises it lawdeclaring power when a ruling has an effect on
“primary conduct.” See id. (citing Hanna v. Plumer,
380 U.S. 460, 475 (1965) (Harlan, J., concurring)
(classifying rules affecting “primary decisions
respecting human conduct” as substantive for purposes
of Erie R.R. Co. v. Tompkins, 304 U.S. 64 (1938)).”
“A void order which is one entered by court which
lacks jurisdiction over parties or subject matter, or
lacks inherent power to enter judgment, or order
procured by fraud, can be attacked at any time, in any
court, either directly or collaterally, provided that
party is properly before court, People ex rel Brzica v.
Village of Lake Barrington, 644 N.E.2d 66 (Ill-App. 2
Dist. 1994).” See Long u. Shorebank Development
Corp., 182 F.3d 548 (C.A. 7 Ill. 1999) A void judgment
is one which, from its inception, was
complete nullity and without legal effect. Thompson v.
Thompson, 238 S.W.2d 218 (Tex.Civ.App.-Waco 1951).
A void judgment is one that has been procured by
extrinsic or collateral fraud or entered by court that did
not have jurisdiction over subject matter or the parties;
Cockerham v. Zikratch, 619 P.2d 739 (Ariz. 1980)
procured through fraud, and such judgments may
be attacked directly or collaterally.
II.

D.C. Court of Appeals Judgment Is
In Stark Conflict with Petitioner’s
Constitutional Rights, Record, Evidence,
Procedural Rules and Other Laws

On April 20, 2017, the Superior Court entered
an order granting the motion for judgment and decree
of sale. On April 20, 2018, Petitioner sought grounds
9

for relief from the court’s void order by timely filing a
motion to reinstate civil action under D.C. Super. Ct.
Civ. Rule 60(b)(3), which provides for “fraud (whether
previously called intrinsic or extrinsic),” Rule 60(b)(4),
provides that “the judgment is void,” and Rule 60(d)(2),
“set aside a judgment for fraud on the court.”
Petitioner also filed a motion for leave to exceed the
twenty-page limit to forty pages. On May 18, 2018,
Petitioner filed an amended motion to vacate the
Superior Court’s order under the same grounds for
relief (Rule 60(b)(3), 60(b)(4) and 60(d)(2)), and a
motion to exceed the twenty-page limit to seventy-six
pages.
On June 4, 2018, Respondents filed an
unfounded conclusory opposition.
On June 29, 2018, the court issued an order,
which states in pertinent part that, “The Court grants
the May 18, 2018 Motion for Leave to Exceed the
Twenty Page limitation. An Order is forthcoming on
the May 18, 2018 Amended Motion to Reinstate Civil
Action to Vacate Trial Court’s Void Orders...” See June
29, 2018 Order at Appendix D, (D-2). On August 27,
2018, the court issued an order, denying Petitioner’s
motion to vacate its void order. Contrary to the record
evidence, the court not only denied Petitioner’s relief
filed under Rule 60(b)(3), 60(b)(4) and 60(d)(2), but
rather, the court contended to find that Petitioner filed
an untimely Rule 60(b)(6), which provides for, “any
other reason that justifies relief.” The court cites the
standard for relief under Rule 60(b)(6),” which provides
in pertinent part:
“The rule is reserved for “extraordinary
situations justifying an exception to the
overriding policy of finality.”
(citations
10

omitted). “A necessary condition to such relief
is that circumstances beyond the moving
party’s control prevented timely action to
protect its interest...”
Rule 60(c)(1) addresses “Timing and Effect of the
Motion,” filed under Rule 60(b), which provides that a
motion “must be made within a reasonable time—and
for reasons (1), (2), and, 60(b)(3), “no more than a year
after the entry of the judgment or order or the date of
the proceeding,” Under Rule 60(b)(4) and 60(d)(2), sets
no time limit in which to seek relief on void orders and
judgments procured in the commission of fraud on the
court.
On March 23, 2019, Respondents filed an
untimely motion for summary affirmance to
Petitioner’s (appellant) brief and suggested that DCCA
mirror-image its appellate review by issuing findings
having no foundation or basis in fact and to simply turn
a blind eye to the totality of Petitioner’s genuine issues
of material fact of foreclosure fraud, orchestrated
default, intentional spoliation of evidence, discovery
abuse and the like, and find that Petitioner (appellant)
only offered conclusory allegations of fraud and forgery
and failed to present a prima facie adequate defense to
the default. On August 21, 2019, DCCA issued its
judgment, affirming the court’s August 27, 2018 order,
which states in pertinent part:
“The trial court did not abuse its discretion
in denying appellant’s Super. Ct. Civ. R.
60(b) motion when, among other things,
appellant only offered conclusory allegations
of fraud and forgery and did not present a
11

prima facie adequate defense to the default,
(citations omitted)... To the extent she
alleges appellee prevented her from curing
the default, appellant never offered any
evidence to support these claims, (citations
omitted). In light of this disposition, we need
not address any remaining issues raised by
appellant on appeal.” See Appendix A, 2-3.
DCCA’s findings in its entirety are contrary to
evidence and the record, specifically, asserting that
Petitioner alleges appellee prevented her from curing
the default,” is not an allegation nor a defense made by
Petitioner and cannot be found in any records filed by
Petitioner in superior court nor in her appellant brief
and appendix. The erroneous finding is to present a
false conclusion that Petitioner actually caused a
default and that a known unregistered bogus trust,
U.S. Bank, N.A., et al., is recognized by Petitioner as a
real party in interest that is before the courts.
Fraud on the Court
In order to meet the necessarily demanding
standard for proof of fraud upon the court...there must
be (1) an intentional fraud; (2) by an officer of the court;
(3) which is directed at the court itself; and (4) in fact
deceives the court. We further concluded that
determination of fraud on the court may be justified
only by “the most egregious misconduct directed to the
court itself,” and that it “must be supported by clear,
unequivocal and convincing evidence.”
In re
Coordinated Pretrial Proceedings in Antibiotic
Antitrust Actions, 538 F.2d 180, 195 (8th Cir. 1976), In
re Addams, 579 A.2d 190, 191 (D.C. 1990) (en banc);
12

mail or wire fraud, In re Bond, 519 A.2d 165, 166 (D.C.
1986); felony theft of federal funds, In re Patterson, 833
A.2d 493 (D.C. 2003), and other felony theft offenses,
see id. (citing cases).”
In Bulloch u. United States, 763 F.2d 1115, 1121
(10th Cir. 1985), the court stated “Fraud upon the court
is fraud which is directed to the judicial machinery
itself... It is where the court or a member is corrupted
or influenced or influence is attempted...thus where
the impartial functions of the court have been directly
corrupted... or where the judge has not performed his
judicial function
thus where the impartial functions
of the court have been directly corrupted.”
“The amendment...[makes]... fraud an express
ground for relief by motion; and under the saving
clause, fraud may be urged as a ground for relief by
independent action insofar as established doctrine
permits... And the rule expressly does not limit the
power of the court to give relief under the saving
clause. As an illustration of the situation see HazelAtlas Glass Co. v. Hartford Empire Co., [322 U S 238
(1977)].”
A. Complaint for Judicial Foreclosure
Fraught with Fraud
On December 21, 2015, Matthew McGovern, Esq.,
formerly with the law office of Stern & Eisenberg, P.C.I
Mid-Atlantic, (“S&E”), knowingly and willfully filed a
frivolous Complaint for Judicial Foreclosure against
Petitioner, her Property and Mr. Reosti, contending
that the complaint was filed pursuant to D.C. Code §
42-816, on behalf of U.S. Bank, National Association,
Not in Its Individual Capacity, But Solely as Trustee
13

for RMAC Trust, Series 2013-1T (alternatively, U.S.
Bank, N.A. et al., and/or RMAC Trust, Series 2013.-IT).
(i)

Orchestrated False Mortgage
Default of May 1, 2014

The orchestrated default of May 1, 2014 is part of
the foreclosure fraud scheme. Petitioner’s Post-petition
Payments were intentionally placed in a bogus
suspense account for the months of May 1, 2014 and
June 1, 2014 in the amount of $5515.83. The court and
Respondents have disguised these payments as surplus
proceeds. See Appendix G and Appendix H-3.
(ii) Intentional Spoliation of the Promissory Note
and Other Documents
The Complaint’s unfounded allegations, inter
alia, that NovaStar, (a 2008 defunct Lender), assigned
its rights and interest under the Property’s June 25,
2007 deed of trust and note to an unregistered “2013”
trust under the guise of fiduciary trustee of U.S. Bank,
N.A., as alleged:
“The original Lender [NovaStar], assigned
its rights under [June 25, 2007] Note and
Deed of Trust to Plaintiff [U.S. Bank, N.A...
as Trustee for the RMAC Trust, Series 20131T], see Exhibit D attached and incorporated
hereto by reference. The Plaintiff is the
current holder of the Note and beneficiary of
the Deed of Trust aforesaid.” (Brief, at 12)
While the unfounded allegations of Respondent’s
ownership of the negotiable instruments were being
14

asserted in motions, pleadings and other papers—
simultaneously, the note’s indorsement stamp, other
sections of the note and other documents were
intentionally defaced and filed as exhibits, attached to
the Complaint and incorporated by reference. (Motion
to Vacate Order, App. 388-390).
On January 18, 2016, Paul D. Hunt, Esq., entered
his appearance on behalf of Petitioner and co­
defendant Reosti. According to Hunt, on the day of
entering his appearance, he spoke with Hildebeidel
concerning, inter alia, the requests to produce
undefaced copies of the purported note and other
documents. On January 18, 2016, Hildebeidel also
entered his appearance in place of Matthew McGovern,
Esq.
After reasonable time and inquiries Petitioner
made to Mr. Hunt relating to the status of acquiring an
undefaced copy of the note and other documents
including the request to review the original note, it was
to no avail. Subsequently, on February 5, 2016, the
Petitioner and Mr. Reosti decided that it would be in
their best interest to end the attorney-client
relationship with Mr. Hunt. On February 5, 2016, Mr.
Hunt filed a “motion to withdraw from representation
of both co-defendants.”
Coupled with the depravity of a fraudulent
foreclosure, compounded with a deliberate spoliation of
the note, on April 10, 2016, Petitioner’s residence of
more than sixteen years (2000 to April 10, 2016)
suffered fire damage.
Then on May 23, 2016,
Petitioner’s father passed away. Since she was the only
child from her father, the depravity of the foreclosure
prevented Petitioner from handling her father’s
15

business affairs and to quietly grieve over his untimely
passing.
On August 9, 2016, Linda Barran Esq. (“Barran”
and or “Respondent”), with Stern & Eisenberg, entered
her appearance on behalf of U.S. Bank, N.A., et al. On
August 12, 2016, during the initial scheduling
conference held before Magistrate Shana Matini, the
parties present were Barran, Hunt and Petitioner. The
court granted Hunt’s consent motion to withdraw as
counsel for the defendants. During this initial hearing,
Petitioner desperately informed the court that counsels
intentionally filed a spoliated note and other
documents attached to the December 21, 2015
complaint. Petitioner’s plea to the court was to no
avail; the judge stared at Petitioner and said nothing.
On September 2, 2016, Petitioner filed her
answer, including affirmative defensives, which
entailed, inter alia, fraud on the court; court lacking
subject-matter jurisdiction; and, spoliation of
promissory note with images of spoliations. Petitioner
denied the allegations relating to the default of May 1,
2014 contained in paragraph 9 of the complaint. (App.
100-116).
Petitioner made every reasonable effort to retain
new counsel in hopes that new representation would
demand Stern & Eisenberg to produce an undefaced
copy of the note and other documents and perhaps
Petitioner would receive impartial treatment from the
court. Furthermore, new counsel would have provided
the Petitioner the opportunity to settle her father’s
affairs and to quietly mourn over his passing.
The task of retaining new counsel on a deliberate
defaced note rendered impossible. The Petitioner
consulted with numerous attorneys, and each wanted
16

absolutely nothing to do with the case after literally
verifying in the case docket that the court actually
permitted Respondents to misrepresent standing on a
spoliated promissory note and on an obvious
orchestrated May 1, 2014 default.
On October 21, 2016, Barran and Petitioner
appeared before the magistrate court for a second
Scheduling Conference. Again, Petitioner raised the
critical issue regarding the spoliated note. Reosti did
not appear for the hearing due to miscommunication
and the inappropriate manner in which he received the
summons and complaint. In spite of the fact that the
court was in possession of spoliated evidence, the court
granted Barran’s oral motion to issue a default against
Reosti. (Brief, at 12).
III. The Superior Court Permitted the
Spoliation of the Promissory Note and
Other Documents
For a period of nearly FIFTEEN (15) MONTHS
(December 15, 2015—March 6, 2017), the note’s
indorsement stamp and other documents remained
under defacement. In spite of Petitioner’s many
requests to produce a copy of an undefaced note, it was
to avail. On February 10, 2017, Petitioner made
another plea to Respondent to produce an undefaced
note through her requests for discovery. On the same
day, of February 10, 2017, Respondents filed a motion
to substitute party plaintiff, still contending that
NovaStar assigned its rights under the negotiable
instruments.
Under District of Columbia law, the elements to
prove intentional spoliation of evidence are (1) the
party having control over the evidence had an
17

obligation to preserve it when it was destroyed or
altered; (2) the destruction or loss was accompanied by
a “culpable state of mind;” and, (3) the evidence that
was destroyed or altered was “relevant” to the claims
or defenses of the party that sought the discovery of the
spoliated evidence, to the extent that a reasonable
factfinder could conclude that the lost evidence would
have supported the claims or defense of the party that
sought it. Mazloum v. District of Columbia Metro.
Police Dep’t, 530 F. Supp. 2d 282, 291 (D.D.C. 2008);
Bolger v. District of Columbia, 608 F. Supp. 2d 10, 30
(D.D.C. 2009).
Among
the
profound
prejudices
and
•unconstitutional acts committed against Petitioner,
the egregious nature of these lawless acts include, inter
alia, that for a period of nearly fifteen (15) months,
commencing from the date the complaint was
filed on December 21, 2015 through March 6, 2017, the
court authorized the Respondents to conceal the
identity of the true owner and holder of the promissory
note and deed of trust by manner of intentional
spoliation and defacement of the promissory note’s
indorsement stamp and other areas of the note,
including other fabricated and forged instruments
(e.g., three fraudulent Assignments of Deed of Trust
and three undated and unaffixed Allonges to Note).
Black’s Law Dictionary, 5th Edition, defines
spoliation and defacement (Deface) of evidence as:
“Spoliation of evidence. The destruction of
evidence. It constitutes an obstruction of
justice. The destruction, or the significant
and meaningful alteration of a document or
instrument. Application of Bodkin, D.C.
18

N.Y., 165 F. Supp. 25 30. Any change made
on a written instrument by a person not a
party to the instrument.”
A.

Spoliation of the Promissory Note
Was Confirmed with Check Marks

The culpable state of mind of the Respondents
reveal more than just malicious intent to deprive
Petitioner of her residence by procurement of
foreclosure fraud. The magnitude of the spoliation
further reveals the likelihood that the note may have
been additionally misused to commit foreclosure fraud
against other victims. The spoliation included defacing
the signatures and preprinted names of Petitioner,
Melissa L. Barnette and John Reosti and the address
of property. More pointedly, Respondents placed check
(V) marks alongside the spoliated areas to confirm
specific sections of the note to obliterate. In fact, the
spoliation to the note’s indorsement stamp was twice
confirmed by placing both a check (V) mark and a
partial circle overtop the defaced indorsement stamp.
See Appendix E, page E-5.
The preselected spoliated areas of the note are as
follows: (1) the mortgage origination date (June 25,
2007); (2) the City and State of the Lender
(Independence Ohio); (3) the Property Address (1110 Q
Street NW, Washington, DC 20009); (4) the Principal
loan amount ($300,000.00); (5) the name of the
originating Lender (NovaStar Mortgage, Inc.); (6) the
initial Adjustable Interest Rate (8.900%); (7) the due
date of the last Balloon payment (July 1, 2037); (8) the
initial monthly ARM payment ($2,392.31). See
19

Appendix E, page E-l; (9) Borrowers’ signature and
their pre-printed names; and (10) the indorsement
stamp. See Appendix E-5.
The lower courts and Respondents were and are
fully cognizant of the fact that security instruments,
such as promissory notes and allonges are not
instruments recorded in land registries, at least not
filed with the D.C. Recorder of Deeds. However, in
order to discern what relevant information that had
been intentionally defaced from the assignments, for a
fee, Petitioner was forced to acquire certified true
copies of the three assignments of deed of trust from
D.C. Recorder of Deeds.
In Bulloch v. United States, 763 F.2d 1115, 1121
(10th Cir. 1985), the court stated “Fraud upon the court
is fraud which is directed to the judicial machinery
itself... It is where the court or a member is corrupted
or influenced or influence is attempted...thus where
the impartial functions of the court have been directly
corrupted... or where the judge has not performed his
judicial function — thus where the impartial functions
of the court have been directly corrupted.” See HazelAtlas Glass Co. v. Hartford Empire Co., [322 U S 238
(1977)].”
B. Chain of Fraudulent Assignments of Deed
of Trust (Filed False Bankruptcy Claims)
Intentional Spoliation of the Three
Assignments of Deed of Trust and
Allonges to Note
The
Chain of Fraudulent and Forged
Assignments of Deed of Trust (Filed False Bankruptcy
20

Claims) and spoliation of assignments were argued in
Petitioner’s motion to vacate (App. 409-417), and
Appellant’s brief, at 19-25.
(1) The chain of fraudulent assignments and
filing false bankruptcy claims against Petitioner’s
Chapter 13 bankruptcy plan began with two employees
transferring the deed of trust in the names of bogus
trusts owned by one of the employees. The following is
a summary of the argument presented:
On May 14, 2008, Barclays Capital, doing
business as, HomEq Servicing Corp., hired Robert E.
Mattesky (alternatively, “Mattesky”), as its “Whole
Loan Trader.” (App. 359). Mattesky is also the owner
of Arch Bay Holdings, LLC-Series 2009B, and Arch
Bay Asset-Backed Securities Trust 2010-2.
On April 15, 2010, Noriko Colston (“Colston”),
purportedly, an employee of HomEq, perpetrated
under the false pretenses as the Assistant Secretary of
“Mortgage Electronic Registration Systems, Inc.,
(“MERS”), as Nominee for NovaStar Mortgage Inc., Its
Successors and Assigns,” forged an assignment of the
Property’s deed of trust over to Arch Bay HoldingsSeries 2009B.
The allonge was apparently fabricated sometime
after the assignment had been forged on April 15, 2010.
In that, Colston perhaps failed to remember that
he/she falsely perpetrated authority in the assignment
as the Assistant Secretary of MERS while Colston had
later forged the allonge as the Assistant Secretary and
“Attorney in Fact” for “Wells Fargo Bank, N.A.,
Successor by Merger to Wachovia Bank, N.A., By
Barclays Capital Real Estate Inc., DBA Homes
Servicing Its Atty in Fact.” On May 13, 2010, the
assignment of deed of trust was unlawfully recorded
21

with D.C. Recorder of Deeds, Document No.
2010044119. (App. 360-362).
The following information was intentionally
defaced from the assignment with confirmation check
(V) marks placed alongside the spoliated areas: (1) the
name of Arch Bay Holdings-Series 2009B; (2) the date
of April 15, 2011; (3) the name of “Mortgage Electronic
Registration Systems, as Nominee for NovaStar
Mortgage Inc., Its Successors and Assigns;” (4) Noriko
Colston’s forged signature and title; (5) the assignment
was intentionally reduced to an unreadable, grainylike minuscule font size. (Spoliated Assignment, App.
65-67).
The following spoliation made to the allonge was
confirmed with a single check (V) mark: (1) “Pay to the
order of: Assignee: Arch Bay Holdings, LLC-Series
2009B (without recourse);” (2) “By: Assignor: Wells
Fargo Bank, N.A., Successor By Merger to Wachovia
Bank, N.A. By Barclays Capital Real Estate Inc., DBA
Homes Servicing Its Atty in Fact;” and (3) Noriko
Colston’s name, title and signature. (App. 41).
(2) On January 18, 2011, the Property’s Deed of
Trust was once again fraudulently transferred from
Arch Bay Holdings, LLC-Series 2009 over to Arch Bay
Asset-Backed Securities Trust 2010-2, owned by
Mattesky. (App. 412-413). On April 1, 2011, the
assignment was unlawfully recorded in the D.C.
Recorder of Deeds, Document No. 2011040064. (App.
363-364).
The following information was intentionally
defaced from the assignment with check (a/) marks
placed alongside the spoliated areas: (1) the name of
Arch Bay Holdings-Series 2009B; (2) Arch Bay Asset22

Backed Securities Trust 2010-2; (3) the date of
3/9/2011. (App. 68-69).
The spoliation intentionally made to the undated
and unaffixed allonge was confirmed with a single
check (V) mark as follows: (1) Arch Bay Holdings, LLC
- Series 2009B; (2) Robert Mattesky (App. 42, see also,
App. 221).
(3) On December 28, 2012, another unlawful
assignment of the Property’s Deed of Trust was
transferred from “Arch Bay Asset-Backed Securities
Trust 2010-2” over to “U.S. Bank, N.A., Not in its
Individual Capacity, But Solely as Trustee for the
RMAC Trust, Series 2013-1T.” (App. 413-414).
Approximately four months later, on April 22, 2013,
the assignment was fraudulently recorded with the
D.C. Recorder of Deeds, under Document No.
2013046444. (App. 365-366).
The following information was intentionally
defaced from the assignment with check (V) marks
placed alongside the spoliated areas: (1) U.S. Bank,
N.A., as Trustee for...RMAC Trust, Series 2013-1T; (2)
Arch Bay Asset-Backed Securities Trust 2010-2; (3) the
date of 12/28/2012. (App. 70-71).
IV. Filed Frivolous Motion to Substitute
Party Plaintiff While the Promissory
Note Remained Under Spoliation
On January 29, 2016, following the filing of the
December 21, 2015 complaint, RMAC Trust, Series
2013-IT, perpetrating under the guise of fiduciary
trustee of U.S. Bank, N.A., unlawfully transferred the
Property’s deed of trust to yet another fake trust, Prof2013-M4 Legal Title, By U.S. Bank, N.A., as Legal Title
Trustee. Approximately, three months later, on April
23

25, 2016, the void ab initio Assignment of Deed of Trust
was recorded in the D.C. Recorder of Deeds, Document
No. 2016040296. (App. 367-370).
Then, on February 10, 2017, approximately
fourteen (14) months after the December 21, 2015
complaint was filed, Respondents willfully and
knowingly filed a frivolous “Motion to Substitute Party
Plaintiff.” While counsels feigned that the motion was
filed “pursuant to Super. Ct. Rules 17(a) and 25(c) —
simultaneously, the note’s indorsement stamp and
other documents remained under spoliation. Rule 17(a)
and Rule 25(c) provides for the following:
Rule 17. Plaintiff and Defendant;
Capacity; Public Officer
(a) REAL PARTY IN INTEREST.
(1) Designation in General. An action must
be prosecuted in the name of the real party
in interest. The following may sue in their
own names without joining the person for
whose benefit the action is brought: (A) an
executor; (B) an administrator; (C) a
guardian; (D) a bailee; (E) a trustee of an
express trust; (F) a party with whom or in
whose name a contract has been made for
another’s benefit; and (G) a party authorized
by statute.
Rule 25. Substitution of Parties
(c) Transfer of Interest. If an interest is
transferred, the action may be continued by
or against the original party unless the
court, on motion, orders the transferee to be
24

substituted in the action or joined with the
original party. The motion must be served
as provided in Rule 25(a)(3).
The purpose of Rule 17(a), inter alia, is to
establish subject matter jurisdiction. The fraudulent
foreclosure also violated every applicable Rule and
other laws that demand for an individual to be
identified.
“[I]t is fundamental that a party
commencing litigation must have standing to sue in
order to present a justiciable controversy and invoke
the jurisdiction of the common pleas court.
Even if Petitioner caused a default under the
negotiable instruments, although, that is not the case
here, however, Superior Ct. Civ. Rule 17(a) does not
change this principle, and a lack of standing at the
outset of the litigation, as the one here, with U.S. Bank,
N.A., as Trustee for RMAC Trust, Series 2013-IT
cannot transfer interest it never legally acquired in the
first place over to Prof-2013-M4 Legal Title Trust
by U.S. Bank, N.A., as Legal Title Trustee. See, Davis
v. Yageo Corp., 481 F.3d 661, 678 (9th Cir. 2007); Clark
v. Trailiner Corp., 242 F.3d 388 (10th Cir.2000)(table),
opinion reported at 2000 WL 1694299 (noting that the
plaintiff cannot “retroactively become the real-partyinterest” in order to cure a lack of standing at the filing
of the complaint).
Rule 17(a) is intended to “protect a defendant
against a subsequent claim for the same debt
underlying a previously entered judgment. See, United
Fed’n of Postal Clerks, AFL-CIO v. Watson, 709 F.2d
462, 470-71 (D.C. Cir. 1969). (Motion to Vacate, at App.
414-415, 427-431 see also, Appellant’s Brief, at 29-32).
25

V.

Counsels Identified the Spoliation of
Promissory Note and Other Documents as
Redactions Required Under Super.
Ct. Civ. Rules and Accepted by the Court

On March 6, 2017, Respondents reluctantly
produced an undefaced copy of the note and other
documents through Petitioner’s requests for discovery
served on February 10, 2017. After maliciously
withholding critical evidence of legal entitlement to the
underlying negotiable instruments through spoliation
in a fraudulent foreclosure action, counsels attempted
to blame pro se Petitioner for her alleged ignorance of
not understanding Super. Ct. Civ. Rules, contending
that the spoliation of the promissory note’s
indorsement stamp and other documents are
“redactions” required under Superior Court Rule
(Rule 5.2(a)(1)) and was accepted by the court (Rule
5.2(e)(1)). (See Appendix J, for Rule 5.2.).
In response to Petitioner’s 15-month request,
counsels replied by saying the following:
“Defendant Barnette apparently lacks
understanding of the DC Superior Court
requirement that personally identifiable
information must be redacted in documents
filed with the Court, and that redacted
documents, such as those filed with the
Complaint, are accepted by the Court.
Plaintiff is producing a replacement copy of
the Note and related documents that are
unredacted.” (Brief, 41-42), (App. 166-167
and 423-424).

26

The note reveals that NovaStar specially indorsed
the underlying negotiable instruments over to Wells
Fargo Bank, N.A., as shown herein:
Pay to the order of:
WELLS FARGO BANK, N.A., SUCCESSOR
BY MERGER TO WACHOVIA BANK. N.A.
WITHOUT RECOURSE
NovaStar Mortgage, Inc.
A Virginia Corporation
David A. Pazsan
David A. Pazgan, President/CEO
Gres Metz
Greg Metz, SVP/CFO
See Promissory Note, Appendix F-12.
Petitioner served the following admission
discovery request relating to the payee’s identity
behind the defaced note.
Counsels responded with boilerplate objections, ending
with “Defendant Barnette has no standing to challenge
the assignment of the Deed of Trust as stated:
Admission No. 32: Admit that the original
Lender did not assign its rights under the
Note and Deed of Trust to Plaintiff RMAC
Trust, Series 2013-1T., alleged in paragraph
8 of the Complaint.” (App. 155, f 32).
Response: Objection. Plaintiff objects to
this request as not reasonably calculated to

27

lead to the discovery of admissible evidence.
Plaintiff additionally objects on the grounds
that Defendant Barnette has no standing to
challenge the assignment of the Note and
Deed of Trust.” (Brief, at 39-41).
VI.

Order Granting Motion to Substitute
Party Plaintiff is Void Ab Initio

On March 20, 2017, the court consciously issued
a void “Order Granting Motion to Substitute Party
Plaintiff,” entered on March 21, 2017. The court
permitted the spoliation of the note and the
Respondents to concoct a false mortgage default and
disguise those payments as “surplus proceeds:”
No Opposition has been filed. On December
21, 2015, Plaintiff filed a Complaint for
Judicial Foreclosure seeking to foreclose upon
a Deed of Trust secured by the property located
at 1110 Q Street NW, Washington, D.C. 20009
against Defendant.
Thereafter, Plaintiff
transferred its interest in the Note and Deed of
Trust secured by the property to Pro-2013-M4
Legal Title Trust, by U.S. Bank National
Association, as Legal Title Trustee, successor
in interest to U.S. Bank National Association,
Not its Individual Capacity, But Solely as
Trustee for the RMAC Trust Series 2013-1T...
The Court finds that there will be no prejudice
to Defendant by granting the Motion to
Substitute Party Plaintiff. Upon consideration

28

of the motion, the entire record herein, and
good cause shown, Plaintiffs Motion to
Substitute Party Plaintiff is granted.” (App.
243-244).
Pursuant to Super. Ct. Civ. Rule 82, the Rules of
Civil Procedure do not extend the jurisdiction of the
courts, and a common pleas court cannot substitute a
real party in interest for another party if no party with
standing has invoked its jurisdiction in the first
instance. “Because standing is a threshold question,
courts have stated that a defect in standing cannot be
waived; it must be raised, either by the parties or by
the court, whenever it becomes apparent” (Froehle,
2011, pp. 1729-1730, FN 57-61).”
Pursuant to Super. Ct. Civ. Rule 12(h)(3),
provides that, “If the court determines at any time that
it lacks subject-matter jurisdiction, the court must
dismiss the action. The court knew from the onset that
Wells Fargo Bank is the successor in interest to
NovaStar, yet the court issued false findings while
contending through another false finding that “[t]he
Court finds that there will be no prejudice to Defendant
by granting the motions.” Thus, conveying another
false finding that the court has subject-matter
jurisdiction completed.
“Every person is entitled to an opportunity to be heard
in a court of law upon every question involving his
rights or interests, before he is affected by any judicial
decision on the question. Earle v. McVeigh, 91 US 503,
23 L Ed 398.”
The foregoing argument was presented in
Petitioner’s motion to vacate (App. 440-443), and in
appellant’s brief, at 42-44.
29

VII. Motion for Summary Judgment
Fabricates Three Different Entitlements
To Foreclose
On March 20 2017, Respondents filed a
fraudulent Motion for Judgment and Decree of Sale
Against Melissa L. Barnette and John Reosti. Even
after reluctantly providing Petitioner with an
undefaced copy of note, in which case, the payee of the
note is identified as Wells Fargo Bank, N.A., in spite of
that fact, Respondents not only continued to move
forward with an unlawful foreclosure, but also
continued to falsely represent that NovaStar assigned
its interest in the underlying negotiable instruments
over to U.S. Bank, N.A., et al, further falsifying
additional standing for Prof-2013-M4 to foreclose. As
part of the foreclosure fraud scheme, Respondents
fabricated three different types of entitlement of
standing to foreclose as filed in the motion for summary
judgment:
(1) Successor in Interest
“In support of this motion filed herewith,
Prof-2013-M4 Legal Title Trust by US Bank,
National Association, as Legal Title Trustee,
successor in interest to US Bank, N.A... as
Trustee for RMAC Trust, Series 2013-IT.”
(App. 186).
(2) Pro-2013-M4 Legal Title Trust as the
Original Lender of the July 25. 2007
Deed of Trust and Note
30

“Plaintiff, [Pro-2013-M4 Legal Title Trust by
US Bank, N.A., as Legal Title Trustee]
encumbered the Property with a Deed of
Trust securing a Note in the original
principal amount of Three Hundred
00/100
Dollars
Thousand
and
($300,000.00).” (App. 191, U 3).
In furtherance of the foreclosure scheme, the
Respondents purposely omitted to include an alleged
date when Pro-2013-M4 encumbered Petitioner’s
residence.
(3) Negotiable Instrument Indorsed in Blank
The conclusory allegation of standing to foreclose
that is advanced here alleges that Pro-2013-M4 Legal
Title Trust is entitled to enforce an imaginary original
note indorsed in blank, as falsely alleged:
“The law in the District is clear on this point a noteholder can foreclose:
Under District of Columbia law, the holder
of a negotiable instrument indoor
[indorsed] in blank is normally entitled to
enforce the instrument, including through
foreclosure proceedings. See D.C. Code
§28:3-301 (2012 Repl.) (holder of negotiable
instrument may enforce instrument) ...”
(App. 193-194).
The foregoing argument was presented in
Petitioner’s motion to vacate (App. 440-443), and in
appellant’s brief, at 42-44.
31

Standard Review
The District of Columbia Court of Appeals reviews
a grant of a motion for summary judgment under “de
novo” standard. See Molla v. Sanders, 981 A.2d 1197,
1199 (D.C. 2009).
Under Rule 56(c), summary
judgment is appropriate if the “pleadings, depositions,
answers to interrogatories, and admission on file,
together with the affidavits” show that there is no
genuine issue as to any material fact and the moving
party is entitled to judgment as a matter of law. Super.
Ct. Civ. R. 56(c); Byrd v. Allstate Insurance Company,
622 A.2d 691, 692 (D.C. 1993) citing Holland v.
Hannan, 456 A.2d 807, 815 (D.C. 1983). Sturdivant v.
Seaboard Serv. Sys., 459 A.2d 1058 (D.C. 1983).
Osbourne v. Capital City Mortgage Corp., 667 A.2d
1321 1324 (D.C. 1995); Nader v. de Toledano, 408 A.2d
31 (D.C. 1979), cert, denied 444 U.S. 1078, 100 S.Ct.
1028 62 L.Ed. 2d 761 (1980).
“A genuine issue of material fact exists if the
record contains ‘some significant probative evidence...
so that a reasonable fact-finder would return a verdict
for the non-moving party.”’ Brown v. 1301 K St. Ltd
P’ship, 31 A.3d 902, 908 (D.C. 2011) (citing 1836 S St.
Tenants Ass’n v. Estate of Battle, 965 A.2d 832, 836
(D.C. 2009)).
One who seeks summary judgment may discharge
his burden of proof by demonstrating that if the case
proceeded to trial the opponent could produce no
competent evidence to support a contrary position.
Nader v. de Toledano, 408 A.2d 31 (D.C. 1979); cert
denied, 44 U.S. 1078 (1980). The moving party has the
32

burden of establishing the absence of any genuine
issues of material facts and the right judgment as a
matter of law. Ferguson u. District of Columbia, 629
A.2d 15, 19 (D.C. 1993). Once the movant satisfies this
burden, the burden shifts to the non-moving party to
show the existence of an issue of material fact. Bruno
v. Western Union Fin. Serus., Inc., 973 A.2d 713, 717
(D.C. 2009).
VIII. Order Granting the Motion for Summary
Judgment Entered on April 20, 2017 is
Void Ab Initio
The court erroneously cites the standard of review
that mandates the entry of Rule 56(c) for summary
judgment, thus contending that its review of the entire
record determined that Respondents discharged its
burdened. The evidence is clear that Wells Fargo Bank
is successor in interest to NovaStar (Appendix F-12).
Regardless of the evidence presented to the court
and to DCCA, the foreclosure court’s following false
findings are affirmed by DCCA:
1. “The original Lender assigned its rights
under the Note and Deed of Trust to
Plaintiff and Plaintiff is the current
holder of the note.” See Appendix 1-2.
2. “The Court granted Plaintiffs Motion to
Substitute Party Plaintiff on March 21,
2017, after Plaintiff established that the
Note had been assigned to another party
in interest. These arguments do not raise
a genuine dispute of material fact.” Id. at
1-6.
33

3. “Plaintiffs submissions establish that it
is the holder of the Note and is entitled to
judicial foreclosure pursuant to § 42-816
of the D.C. Code.” Id. at 1-6.
IX.

False Finding of May 1, 2014 Default—
Non-Real Party In Interest Holds No
Legal Entitlement Under the Negotiable
Instruments

The orchestrated false mortgage default of May 1,
2014 was part of committing the foreclosure fraud
scheme. The imposter mortgage servicers calculatedly
waited until Petitioner completed her Chapter 13
Bankruptcy Plan and concocted the May 1, 2014
default. When RMAC Trust, Series 2013-1T,
unlawfully transferred the property’s negotiable
instruments over to Prof-2013-M4 Legal Title, interest
that was never legally acquired by RMAC, the
$5,515.83 was transferred from Rushmore over to
Specialized Loan Servicing. Both unregistered bogus
trusts perpetrated under the guise of U.S. Bank, N.A.
See Appendix G.
In addition, the $5,515.83 is also shown in
“Plaintiffs Accounting and Distribution of Funds”
attached to the “motion to ratify accounting, release
the bond and close the account” and listed as a line item
under “suspense balance” and “credit.” See Appendix
H-3. Moreover, the court permitted Respondents to
conceal their fraudulent activities committed against
Petitioner over the course of several years and their
lack of ownership under the negotiable instruments by
permitting the spoliation of the promissory note.
34

Contrary to evidence, DCCA’s unfounded findings
of a May 1, 2014 default to a known non-real party in
interest is purely despicable, discriminating and
unsettling:
1. “On May 1, 2014, Defendants defaulted on
the Note by failing to make the required
payments due under the Note.” Id. at 1-2.
2. “[W]hether or not Defendants are in default,
which Defendant Barnette does not
dispute.” MSJ, Id. 1-6.
3. “Moreover, Defendant Barnette has failed
to present any prima facie defense to the
default and instead makes the same
conclusory allegations of fraud that are
unsupported by the record in this case.”
MSJ, Appendix C-4.
4. “To the extent she alleges appellee
prevented her from curing the default,
appellant never offered any evidence to
support these claims.” DCCA’s Order,
Appendix A 2-3.
“In Bulloch u. United States, 763 F.2d 1115, 1121
(10th Cir. 1985), the court stated “Fraud upon the court
is fraud which is directed to the judicial machinery
itself... It is where the court or a member is corrupted.”
And the rule expressly does not limit the power of the
court to give relief under the saving clause. As an
illustration of the situation see Hazel-Atlas Glass Co.
v. Hartford Empire Co., [322 U.S. 238 (1977)].”
35

X.

Respondents Bribed Co-Defendant John
Reosti to Procure His Illegal Consent to
Two Fraudulent Motions

As previously discussed, Reosti did not file an
answer to the complaint, nor did he enter his
appearance at any of the hearings. On April 20, 2017,
the court entered an unjustified default judgment
against Reosti purporting to find the following:
“On September 1, 2016, Defendant Reosti
was personally served. Defendant Reosti did
not file an Answer or responsive pleading
and on October 21, 2016, the Court entered
an order of default against Defendant
Reosti. Plaintiff now moves for judgment by
default pursuant to Super. Ct. Civ. R.
55(b)(2). To date, Defendant Reosti has
failed to file an Answer or appear before the
Court at any proceedings in this matter. The
Court concludes that Defendant Roesti was
personally served with the Complaint and
properly served with the instant motion and
did not respond.
Plaintiff filed a
Servicemembers Affidavit on April 11, 2017,
which demonstrates that Defendant Reosti
is not on active military duty. The Court
concludes that Plaintiff has satisfied the
requirements to obtain judgment by default
in this case, and is entitled to a judgment
against Defendant Reosti.” See Appendix
H-3-4.
36

To further prejudice and cause injury to
Petitioner, after the court entered a default against
Reosti, the court authorized Respondents to
inappropriately communicate with Reosti in order to
unlawfully obtain his consent under Rule 12-I(a)(l), to
two fraudulent motions. The Respondents bribed
Reosti, agreeing to remove any derogatory mortgage
ratings from his credit profile in exchange for his
consent to two motions.
On September 14, 2017, the Superior Court
issued an order granting partial consent to a motion to
continue the September 15, 2017 hearing on the motion
to ratify accounting to November 17, 2017.
On
November 17, 2017, Barran and Petitioner were
present at the status hearing. Among the genuine
issues of material fact raised and argued by Petitioner,
she strongly opposed the court granting the motion
to ratify accounting and the unlawful means used to
acquire Reosti’s void consent to further cause injury to
Petitioner. On December 7, 2017, an “order granting
partial Consent Motion to Ratify Accounting, Release
the Bond and Close the Case” was entered. (Brief, 4749, App. 325-327).
XI.

Ali Pahlavani Is Not a Bona Fide
Purchaser of Petitioner’s Property

Petitioner, Melissa L. Barnette and John Reosti
are the legal title owners of the Property known as
1110 Q Street NW, Washington, DC 20009-4313.
Subsequent to the court’s April 20, 2017 order granting
the motion for summary judgment, on May 4, 2017,
37

Petitioner filed a Notice of Pendency of Action, Lis
Pendens, with D.C. Recorder of Deeds, Document No.
2017049535. On the same day, of May 4, 2017,
Petitioner filed a certified true copy of the lis pendens
with the Superior Court. The lis pendens was filed
more than two months prior to the unlawful scheduled
June 15, 2017 foreclosure sale.
On June 15, 2017, at 12:17 PM, at the office of
Alex Cooper Auctioneers, Inc., Petitioner’s Property
was unlawfully sold to Ali Pahlavani, Trustee of The
Ali Pahlavani Amended and Restated Revocable Living
Trust dated July 25, 2016 for $430,000.00.
Ali
Pahlavani (“Pahlavani”) is not an innocent purchaser;
the lis pendens timely placed Pahlavani on notice of the
egregious foreclosure fraud.
The twenty-three page lis pendens includes, inter
alia, (i) scanned images of the spoliated note, void
assignments of deed of trust; (ii) fabricated allonges;
(iii) the orchestrated May 1, 2014 default; (iii)
deliberately concealed identity of the true noteholder
for approximately fifteen months in order to conceal
the totality of the fraud perpetrated against Petitioner.
On September 15, 2017, a void ab initio Court
Appointed Trustees’ Deed of Petitioner’s residence of
sixteen years was unlawfully conveyed to Ali
Pahlavani, Trustee of The Ali Pahlavani Amended and
Restated Revocable Living Trust, dated July 25, 2016
and recorded with D.C. Recorder of Deeds on
September 19, 2017, Document No. 2017103147.
Prof-2013-M4 Legal Title Trust by U.S. Bank,
N.A., as Legal Title Trustee cannot transfer the
interest under the Property’s negotiable instruments it
never legally acquired in the first place over to Ali
Pahlavan, Trustee. On January 12, 2018 and on
38

August 23, 2019, Petitioner notified the court via email
and carbon copied all parties involved requesting that
the court not authorize any disbursement from that
illegal sale of her home that occurred on June 15, 2017.
It is well-settled that a forged deed, such as the
one here [Document No. 2017103147], is void ab initio,
meaning a legal nullity, entirely without effect from
inception, see, e.g., M.M. & G„ Inc. v. Jackson, 612
A.2d 186, 191 (D.C. 1992) (“It is well settled that a
forged deed cannot validly transfer property and that
even a bona fide purchaser takes nothing from that
conveyance”); Harding v. Ja Laur Corp., 20 Md. App.
209, 214, 315 A.2d 132, 135 (D.C. 1974)) (“A forged deed
obtained, through fraud, deceit or trickery, is void ab
initio”). [“A forged deed...is void ab initio”] Scott D.
Erler, D.D.S. Profit Sharing Plan v Creative Fin. &
Investments, L.L.C., 349 Mont 207, 214 [2009] ["forged
conveyances are void ab initio and do not transfer
title"]; Brock v Yale Mortg. Corp., 287 Ga 849, 852
[2010] ["we have also long recognized that a forged
deed is a nullity and vests no title in a grantee"]; Akins
v Vermast, 150 Or App 236 n 7 [Or Ct App 1997],
The violations of Petitioner’s Fifth and
Fourteenth Amendments not only profoundly deprived
her of the right to due process, the right to defend her
home of sixteen years against a known foreclosure
fraud scheme, but also, the courts’ unashamed stark
discrimination against the Petitioner fraudulently
conveyed substantial property value over to an
investor, Ali Pahlavani, Trustee... — and, further
demonstrated their gratitude to imposter mortgage
servicers for filing false bankruptcy claims against
Petitioner’s residence by rewarding them with even
more ill-gotten gains.
39

"EQUAL JUSTICE UNDER LAW" - These words,
written above the main entrance to the Supreme Court
Building, express the ultimate responsibility of the
Supreme Court of the United States. The Court is the
highest tribunal in the Nation for all cases and
controversies arising under the Constitution or the
laws of the United States. As the final arbiter of the
law, the Court is charged with ensuring the American
people the promise of equal justice under law and,
thereby, also functions as guardian and interpreter of
the Constitution.’”
“The purpose of § 1983 is to deter state actors from
using the badge of their authority to deprive
individuals of their federally guaranteed rights and to
provide relief to victims if such deterrence fails. Carey
v. Pjphus, 435 U. S. 247, 254-257 (1978).”

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
/s/ Melissa L. Barnette. Petitioner
November 18, 2019

40

